APPENDIX

A

Decision of the
United States Court of Appeals for the Seventh Circuit

N ONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App. P. 32.1

Tlntlefr jifehs Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted June 29, 2021*
Decided June 30, 2021
Before
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
THOMAS L. KIRSCHII, Circuit Judge
No. 20-1439
KEVIN HALL,
Plaintiff-Appellant
v.
KUL SOOD, et al.r
Defendan ts-Appellees.

Appeal from the United States District
Court for the Central District of Illinois.
No. 17-4248-CSB
Colin S. Bruce,

Judge.
ORDER

Kevin Hall sued medical professionals at the Henry Hill Correctional Center in
Galesburg, Illinois, and the prison's healthcare contractor, Wexford Health Sources Inc.,
under 42 U.S.C. § 1983. He claimed a violation of his Eighth Amendment rights based
on their allegedly inadequate treatment of his left bicep tear and arm pain while he was

’ We have agreed to decide the case without oral argument because the briefs and
record adequately present the facts and legal arguments, and oral argument would not
significantly aid the court. Fed. R. App. P. 34(a)(2)(C).
Appendix A-2

Page 2

No. 20-1439
a prisoner there. The district court ultimately granted the defendants' motion for
summary judgment, and we affirm.

We recount the facts in the light most favorable to Hall. See Murphy v. Wexford
Health Sources Inc., 962 F.3d 911, 913 (7th Cir. 2020). Hall first complained of tingling and
numbness in his upper extremities in mid-2011. Dr. Kul Sood examined him and
prescribed a 30-day course of gabapentin and acetaminophen. That December, Hall
injured himself doing bicep curls, and Dr. Sood diagnosed a possible tear to Hall's left
bicep, which an x-ray confirmed. Hall's arm improved for a while, but the pain came
back. In March 2013, Hall complained of tingling and numbness in his right arm, and
again reported left-arm pain in February 2014. Both times, Dr. Sood noted a normal grip
and range of motion. He prescribed gabapentin for the tingling and ibuprofen and
carbamazepine for the pain.
Hall's arm pain flared again in 2015. After examining Hall in October, Dr. Sood
again noted a normal range of motion and prescribed a vitamin supplement and
acetaminophen in addition to Hall's existing pain medication. When Hall continued to
report pain, Dr. Sood increased his ibuprofen dosage and discontinued a cholesterol
medication known to cause muscle pain. Then, in June 2016, Dr. Sood reinstated
ibuprofen after Hall said that meloxicam, which another provider had substituted for
the ibuprofen, did not alleviate his pain.
Dr. Catalino Bautista first saw Hall in August 2016, when Hall reported two
years of left-arm pain and one year of right-arm pain. Dr. Bautista observed a mostly
nor mal range of motion but limited abductive ability in Hall's left shoulder. He ordered
physical therapy and independent exercises with therapy putty, which Wexford
administrators approved five days later. Soon, however, a nurse, Leola Parrish, advised
him that prison officials had banned the putty due to security concerns, but that
Dr. Bautista said he could use a balled-up piece of clothing the same way.
After observing limited mobility in Hall's right shoulder at an October 2016
appointment, Dr. Bautista recommended an orthopedic evaluation, which Wexford
administrators approved on November 2. A week later, Dr. Bautista suspended Hall's
physical therapy because two nurses, Sara Faetanini and Paula Young, reported that
Hall was reading a magazine during a session.
On November 18, the orthopedic surgeon who examined Hall recommended an
MRI, a muscle test, and a nerve test, which Dr. Stephen Ritz, a Wexford administrator,
approved. After testing, the surgeon diagnosed Hall with a chronic tom right rotator
Appendix A-3

No. 20-1439

Page 3

cuff and carpal tunnel syndrome in both hands. Hall had right-arm surgery for these
conditions in December 2016. When he returned to the prison, he stayed in the
infirmary, where Parrish, who lacked prescribing authority, administered Hall's post­
surgery medications. Hall complained that they did not alleviate his pain, so
Dr. Bautista changed them.
When Hall was discharged the next month, Dr. Bautista continued the pain
medications, ordered a medical cuff, and recommended follow-up physical therapy and
orthopedic evaluation, which administrators again approved. Hall was evaluated and
scheduled for surgery to address the carpal tunnel syndrome in his left hand.
Hall appeared to recover steadily from the surgeries until April 2017, when he
saw Dr. Bautista for left bicep pain, which Hall said dated back to his 2011 weight­
lifting injury. Dr. Bautista diagnosed a prior bicep rupture and referred him to the
regional medical director, who ordered x-rays. The pain continued, and Dr. Bautista
prescribed more medication and ordered another follow-up visit. By November 2017,
however, Hall reported that nothing Dr. Bautista had prescribed alleviated his pain.
Hall then brought this deliberate-indifference suit against numerous defendants.
After screening, the district court allowed Hall to proceed against doctors Sood and
Bautista; nurses Parrish, Faetanini, and Young; administrator Ritz; and Wexford. Hall
alleged that since September 2015,1 the defendants provided insufficient treatment for
his pain after their prescriptions proved ineffective and unduly delayed more
aggressive treatment, including surgery, causing him permanent injury.
The defendants moved for summary judgment, and the district court granted
their motion. We review that decision de novo, drawing all reasonable inferences in
Hall's favor. Gill v. Scholz, 962 F.3d 360, 363 (7th Cir. 2020). To avoid summary
judgment, Hall needed to present evidence that the defendants knew of and
disregarded a serious risk to his health. See Farmer v. Brennan, 511 U.S. 825, 837 (1994);

1 On appeal, Hall contends that his claims date back to 2011 and have been
artificially limited by the defendants and the district court. But in his complaint and his
deposition testimony, he asserted malfeasance from 2015 on, and that is how the record
was developed at summary judgment. Further, the statute of limitations (which we
borrow from state law in § 1983 cases, see Wilson v. Garcia, 471 U.S. 261, 276 (1985)) is
two years, 735ILCS 5/13-202, and Hall makes no legal argument why claims about
conduct before 2015 are not barred in this 2017 lawsuit, so we do not discuss them.
Appendix A-4

No. 20-1439

Page 4

Petties v. Carter, 836 F.3d 722, 728 (7th Cir. 2016) (en banc). He also needed evidence that
the actions he challenges caused harm. Lord v. Beahm, 952 F.3d 902, 905 (7th Cir. 2020).
With respect to the judgment for doctors Sood and Bautista, Hall first argues that
they each continued ineffective treatment despite knowing that it did nothing to help
him. A prison doctor's persistence in a course of treatment known to be ineffective is a
departure from minimally competent medical judgment, and therefore evidence of
deliberate indifference. See Petties, 836 F.3d at 729-30. Although Hall sees his continuing
pain as evidence that the doctors' treatment was constitutionally inadequate, the record
contains no evidence that they used anything but their professional judgment when
treating him. See id at 728. The doctors adjusted Hall's prescriptions—altering dosages
or choosing new medications—when he complained that they did nothing, or when, as
in the case of acetaminophen, it caused constipation. They did not, therefore, "continue"
the same ineffective treatment. Further, the record shows that the doctors' prescriptions
and therapeutic orders were consistent with generally accepted medical practices.
See Pyles v. Fahim, 771 F.3d 403,409 (7th Cir. 2014). Hall provided no evidence that his
course of treatment was a departure from medical judgment, let alone an extreme one.
Relatedly, Hall contends that the doctors unduly delayed medically necessary
treatment for his arm pain and numbness; he believes they should have immediately
ordered MRIs and surgery. But Hall presents no evidence that either doctor unduly
prolonged his pain, or that any delay resulted from ill intent, as he must to prevail on a
deliberate indifference claim based on delayed treatment. Burton v. Downey, 805 F.3d
776, 771 (7th Cir. 2015); see also Williams v. Liefer, 491 F.3d 710, 714—15 (7th Cir. 2007). The
record shows that the doctors timely responded to Hall's complaints and escalated
treatment over time. At his 2015 visits, Dr. Sood addressed Hall's arm pain by testing
his range of motion and adjusting his pain medication based on Hall's complaints.
Dr. Bautista also treated Hall promptly: He ordered physical therapy and home
exercise, recommended the orthopedic visits that led to surgery, and remained
responsive to Hall's condition during his surgery recovery. None of this is consistent
with impermissible delay. See Harper v. Santos, 847 F.3d 923, 927 (7th Cir. 2017).
Hall also protests the entry of summary judgment for Parrish, who informed him
of the ban on exercise putty and who administered the ineffective post-surgery pain
medication. But neither of these actions show that Parrish recklessly disregarded Hall's
medical needs. See Petties, 836 F.3d at 728. On both occasions, she was following doctors'
instructions: She relayed Dr. Bautista's suggestion of using balled-up clothing instead of
the banned putty, and she administered pain medication as prescribed, informing Hall
Appendix A-5

Page 5

No. 20-1439

that she had no authority to prescribe anything different. With respect to these actions,
therefore, she was not personally responsible for Hall's treatment. See Williams v. Shah,
927 F.3d 476, 482 (7th Cir. 2019).
Hall next contends that nurses Faetanini and Young deliberately interfered with
his treatment by getting his physical therapy suspended. But all they did was report
that he was reading at his therapy appointment. Even if we assigned them personal
responsibility for Dr. Bautista's decision to suspend the therapy, see id., Hall has not
shown that stopping the sessions nine days before his orthopedic evaluation—which
led to different treatment—caused him any harm. See Gabb v. Wexford Health Sources,
Inc., 945 F.3d 1027,1032 (7th Cir. 2019).
Hall also argues that Ritz, the Wexford administrator, knew of Hall's serious
medical condition and impermissibly delayed his treatment. But because the doctors'
recommendations were approved shortly after they were submitted, Hall has no
evidence that there was any injurious delay from the approval process, much less that
Ritz had the required culpability for deliberate indifference. See Burton, 805 F.3d at 785.
Hall cannot prevail on his claim against Wexford, either. Wexford cannot be
vicariously liable for the constitutional violations of its employees. Shields v. Illinois
Dept, of Con., 746 F.3d 782, 789 (7th Cir. 2014). Instead, Hall must show that a Wexford
policy or practice enabled a constitutional deprivation. Monell v. New York City Dep't of
Soc. Servs., 436 U.S. 658, 694 (1978). But Hall lacks evidence that any underlying
constitutional violation occurred, see Pyles, 771 F.3d at 412, or that Wexford's approval
process for specialist referrals and procedures—which proceeded quite swiftly in this
case—slowed down his treatment and resulted in any injury. See Gabb, 945 F.3d at 1032.
Finally, Hail mentioned in his opening brief the denials of his motions for
attorney representation, but he did not develop any argument that the district court
applied the wrong standard or otherwise erred. Therefore, we have no basis for
reviewing the decisions. See Milligan v. Bd. ofTr. of S. III. Univ., 686 F.3d 378, 386
(7th Cir. 2012); Wragg v. Vill. of Thornton, 604 F.3d 464, 467-68 (7th Cir. 2010).
AFFIRMED

Appendix A-6

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen
United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

FINAL JUDGMENT
June 30, 2021
Before
MICHAEL B. BRENNAN, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
THOMAS L. KIRSCHII, Circuit Judge
KEVIN HALL,
Plaintiff - Appellant
No. 20-1439

v.
KUL SOOD, et al.,
Defendants - Appellees

Originating Case Inhumation:
District Court No: 4:17-cv-04248-CSB
Central District of Illinois
District Judge Colin S. Bruce

The judgment of the District Court is AFFIRMED, with costs, in accordance with
the decision of this court entered on this date.

form name: c7_FinalJudgment

(form ID: 132)

Appeldix A-l

APPENDIX

B

Decision of the
U.S. District Court, Central Dist., Springfield Div.

441I7esft/30«8GS$B mmi RSi§§ellaf>fLl

E-FILED

Mrfrc^y,3ffi«§Mit,2020 00:4553 RM

Judgment in a Civil Case (02/11)

ueFfvfTS: district court, ilCD

United States District Court
for the
Central District of Illinois
-Kevin-Hall
Plaintiff,
vs.
Stephanie Dorethy, Dr. Kul B. Sood,
Catalino Bautista, Ritz, Ruth Brown,
Lois Lindorff, Paula Young, Sara
Faetavini, Wexford Health Sources Inc,
Dan Dean, Lola Parrish.
Defendant.

*
)
)
)
)
)
)
)
)

Case Number: 17-4248

)
)
)
)

JUDGMENT IN A CIVIL CASE
□ JURY VERDICT. This action came before the Court for a trial by jury.
have been tried and the jury has rendered its verdict.
M DECISION BY THE COURT.
been rendered.

The issues

This action came before the Court, and a decision has

IT IS ORDERED AND ADJUDGED that Plaintiff Kevin Hall’s action against
Defendants Stephanie Dorethy, Dr. Kul B. Sood, Catalino Bautista, Ritz, Ruth Brown, Lois
Lindorff, Paula Young, Sara Faetavini, Wexford Health Sources Inc, Dan Dean and Lola Parrish
is dismissed with each part to bear their own costs.
Dated:

3/6/2020
s/ Shig Yasunaga
Shig Yasunaga
Clerk, U.S. District Court

4:17-cv-04248-CSB # 8®

Page 1 of 19

E-FILED
2020 0O:*2:£O
Clerk, U.S. District Court, ILCD

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
KEVIN HALL,

)

T
Plaintiff,

)
)
)
)
)
)
)
)

v.

STEPHANIE DORETHY, et at,
Defendants.

No.: 17-4248-CSB

ORDER
COLIN S. BRUCE, U.S. District Judge:
This cause is before the Court on Defendants' motion for summary judgment. As
explained more fully below, Defendants are entitled to the summary judgment because
Plaintiff Kevin Hall has failed to identify a genuine issue of material fact that would
preclude summary judgment in Defendants' favor and because Defendants have
demonstrated that they are entitled to judgment as a matter of law.
I.
MATERIAL FACTS
Plaintiff Kevin Hall is an inmate with the Illinois Department of Corrections
("IDOC") who is currently being housed in the IDOC's Dixon Correctional Center.
However, the factual allegations that form the basis for this suit occurred when Hall
was incarcerated at the IDOC's Henry Hill Correctional Center ("Hill").
The individually named Defendants were each employed by Defendant Wexford
Health Sources, Inc. Each individual worked at Hill during the relevant time, i.e.,
between September 3, 2015 and August 25, 2017, and are medical professionals.
1

4:17-cv-04248-CSB # 89

Page 2 of 19

Wexford is a private corporation that maintains a contract with the IDOC to provide
medical care and medical services to IDOC inmates.
On June 13, 2011, Defendant Dr. Sood examined Hall for complaints of
numbness and tingling in his extremities. Hall also complained to Dr. Sood about ankle
pain related to an old ankle injury. Accordingly, Dr. Sood ordered an X-ray of Hall's
ankle, prescribed Tylenol #3, and prescribed Neurontin to treat his complaints of
numbness and tingling in his upper extremities.
On December 5, 2011, Dr. Sood examined Hall for a recent weight-lifting injury
where Hall reported that he felt something pull in his left arm while he was doing bicep
curls. Dr. Sood believed that Hall had possibly torn his bicep. Accordingly, Dr. Sood
ordered that Hall receive a sling, ordered an X-ray of his arm, and advised Hall not to
perform any more bicep curls. On December 21, 2011, Dr. Sood advised Hall that he
had, in fact, torn his bicep. Dr. Sood, then, issued an order that Hall be allowed to wear
his sling for six weeks and wrote an order that allowed Hall to be front cuffed for six
weeks in order to prevent further injury.
On March 19, 2013, Dr. Sood examined Hall based upon his recent complaints of
numbness and tingling in his upper extremities.1 Upon examination, Dr. Sood found
that Hall's right arm had normal range of motion, that his grip was normal, that the
range of motion in his elbow was normal, and that his shoulder range of motion was

1 Although Hall had seen medical professionals, including Dr. Sood, during the interim
for other medical complaints and issues, March 19, 2013, was the first time since June
13, 2011, that Hall had complained of numbness and tingling in his upper extremities.
■

2

4:17-cv-04248-CSB # 8i

Page 3 of 19

normal. Dr. Sood prescribed Motrin and Neurontin at the conclusion of his
examination.
Dr. Sood examined Hall left elbow on February 6, 2014. During the examination,
Dr. Sood determined that Hall's hand grip was good and that his elbow and hand's
range of motion were within normal limits. Dr. Sood prescribed Tegretol to treat Hall's
nerve pam.
On September 3, 2015, Hall was examined by a nurse for complaints of arm pain.
On October 8, 2015, Dr. Sood examined Hall and found that Hall displayed normal
hand grasp and normal range of motion in his shoulder and elbow. Dr. Sood
determined that Hall had upper extremity pain, and therefore, Dr. Sood directed Hall to
continue taking Motrin and Tegretol. Dr. Sood also prescribed a B6 vitamin
supplement to maintain a healthy nervous and immune system. Dr. Sood last
examined Hall on June 22, 2016.
On August 19, 2016, Defendant Dr. Bautista examined Hall based upon his
complaints of numbness and tingling in his left hand and based upon his complaints of
right upper arm pain that began with numbness in his right hand. Upon examination,
Dr. Bautista observed that Hall had passive full range of motion in his shoulders, but
Hall had limited active abduction in his left shoulder because of pain in his bicep and
tricep areas. Dr. Bautista diagnosed Hall has having right upper arm pain, left hand
numbness, and right arm numbness. Accordingly, Dr. Bautista ordered physical
therapy and a home exercise plan for Hall, which were approved on August 24, 2016.

3

4:17-cv-04248-CSB # S§

Page 4 of 19

On October 12, 2016, Dr. Bautista had a follow-up visit with Hall. At this visit,
Hall reported that he had been performing the exercises and stretches given to him, but
he also reported left shoulder issues with flexion and abduction and left-hand
numbness that began in February 2016. On November 2, 2016, Hall was approved, at
Dr. Bautista's request, for an orthopedic evaluation by a doctor outside of the IDOC.
On November 18, 2016, Hall was examined by an orthopedic surgeon. The
orthopedic surgeon recommended that Hall receive an MRI of his right shoulder and an
EMG and NCV test of his upper extremities. The orthopedic surgeon also
recommended that Hall take Naproxen twice daily. After Hall received these medical
tests, the orthopedic surgeon assessed Hall with a chronic torn rotator cuff and bilateral
carpal tunnel syndrome.
On December 29, 2016, Hall underwent rotator cuff repair surgery and carpal
tunnel release surgery. On January 6, 2017, the surgical staples were removed from
Hall's shoulder, and Hall was instructed to begin strengthening and range of motion
exercised for his shoulder. On January 13, 2017, the sutures on Hall's right wrist were
removed.
On February 3, 2017, Hall wax examined, again, by the orthopedic surgeon —this
time for complaints regarding Hall's left wrist. The orthopedic surgeon recommended
that Hall undergo carpal tunnel release surgery because the surgery on his right wrist
and left shoulder had healed properly. On February 16, 2017, Hall received this
surgery. On March 3, 2017, the sutures from his left wrist were removed. On March 7,

4

4:17-cv-Q4248-CSB # 8i

Page 5 of 19

2017, Dr. Bautista examined Hall, and Hall reported that he no longer was experiencing
tingling in his left hand after the recent surgery.
On April 6, 2017, Dr. Bautista saw Hall for complaints regarding his left bicep.
Hall reported that he had "ripped" his left bicep in 2011 while lifting weights. Hall
explained that his pain was at the medial anterior elbow area and was worse at night.
Dr. Bautista noted that Hall did have left elbow tenderness at the anterior medial area.
Dr; Bautista also noted that, when Hall flexed his left arm, Hall had a distal bulge of his
bicep followed by depressed area. Accordingly, Dr. Bautista prescribed an ace wrap
and Ibuprofen for Hall. Dr. Bautista informed Hall that he would discuss Hall's
condition with the regional medical director for further treatment options.
On May 2, 2017, Hall was examined by the regional medical director who
assessed Hall with left elbow epicondylitis (i.e., tennis elbow) and with an old bicep
tendon or muscle tear. The regional medical director ordered that Hall receive an X-ray
of his arm. Thereafter, Dr. Bautista treated Hall's pain with prescription medication
and ordered that Hall receive physical therapy.
On August 28, 2017, Hall filed this suit under 42 U.S.C. § 1983, alleging that the
named Defendants violated his Constitutional rights. Thereafter, the Court conducted a
merit review of Hall's Complaint, that is required by 28 U.S.C. § 1915A, and determined
that Hall's Complaint stated a claim for deliberate indifference to his serious medical
needs in violation of his Eighth Amendment rights. Defendants have now moved for
summary judgment on Hall's claim against them. Additional facts will be included as
necessary.
5

4:17-cv-04248-CSB # 89

Page 6 of 19

II.
STANDARDS GOVERNING SUMMARY JUDGMENT
Federal Rule of Civil Procedure 56(a) provides that summary judgment shall be
granted if the movant shows that there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law. Fed. R. ClV. P. 56(a); Ruiz-Rivera v.
Moyer, 70 F.3d 498, 500-01 (7th Cir. 1995). The moving party has the burden of providing
proper documentary evidence to show the absence of a genuine issue of material fact.
Celotex Corp. v. Catrett, 477 U.S. 317, 323-24 (1986). Once the moving party has met its
burden, the opposing party must come forward with specific evidence, not mere
allegations or denials of the pleadings, which demonstrates that there is a genuine issue
for trial. Gracia v. Volvo Europa Truck, N.V., 112 F.3d 291, 294 (7th Cir. 1997). "[A] party
moving for summary judgment can prevail just by showing that the other party has no
evidence on an issue on which that party has the burden of proof." Brazinski v. Amoco
Petroleum Additives Co., 6 F.3d 1176,1183 (7th Cir. 1993).
Accordingly, the non-movant cannot rest on the pleadings alone, but must
designate specific facts in affidavits, depositions, answers to interrogatories or
admissions that establish that there is a genuine triable issue; he must do more than
simply show that there is some metaphysical doubt as to the material fact. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 261 (Brennan, J., dissenting) (1986)(quoting Matsushita
Elec. Indus. Co. v. Zenith Radio Corp., 475 U.S. 574, 586 (1986)); Hot Wax, Inc. v. Turtle Wax,
Inc., 191 F.3d 813, 818 (7th Cir. 1999). Finally, a scintilla of evidence in support of the
non-movant's position is not sufficient to oppose successfully a summary judgment

6

4:17-cv-04248-CSB # 8S

Page 7 of 19

motion; "there must be evidence on which the jury could reasonably find for the [nonmovant]." Anderson, 477 U.S. at 252.
III.
DEFENDANTS ARE ENTITLED TO SUMMARY JUDGMENT
Before turning to Defendants' motion for summary judgment, the Court notes
that Hall has filed an affidavit in support of his response to their motion for summary
judgment in which he attempts to demonstrate the existence of a material question of
fact that would preclude summary judgment in Defendants' favor. However, Hall's
affidavit attempts to create questions of fact by offering testimony that contradicts his
testimony offered during his deposition. As such, the Court will not consider Hall's
testimony contained within his affidavit to the extent that it contradicts his deposition
testimony. Cesario v. Jewel Food Stores, Inc., 2020 WL 996498, * 2 (N.D. Ill. Mar. 2, 2020)
(quoting Bank of Illinois v. Allied Signal Safety Restraint Systems, 75 F.3d 1162,1168 (7th
Cir. 1996)("parties cannot circumvent the purpose of summary judgment 'by creating
'sham' issues of fact with affidavits that contradict their prior depositions.'"). "A court
may disregard new sworn testimony when it 1) contradicts that same witness's earlier
sworn testimony and 2) fails to explain the contradiction or resolve any disparities. Id.
Likewise, the Court will not consider Hall's testimony to the extent that his
testimony constitutes expert medical testimony or constitutes a legal conclusion. Hall
has no medical training (he testified that his highest level of education was the eleventh
grade), and therefore, Hall cannot offer a medical opinion because he is unqualified to
do so. Fed. R. Evid. 702; Walker v. Zunker, 30 Fed. Appx. 625, 628 (7th Cir. 2002)

7

4:17-cv-04248-CSB # 8S

Page 8 of 19

("[wjithout any medical evidence of inadequate treatment, a prisoner's self-serving
opinion of the quality of treatment is insufficient to raise a genuine issue of material
fact"); Goffmcm v. Gross, 59 F.3d 668, 672 (7th Cir. 1995) (" Goffman asserts that surely the
testimony of these inmates is entitled to at least as much weight and reliability as Dr.
Khan's. But the medical effects of secondhand smoke are not within the ken of the
ordinary person, so these inmates' lay testimony by itself cannot establish the showing
of medical causation necessary to sustain Goffman's claim."). With that said, the Court
will turn to Defendants' motion for summary judgment.
Persons acting under the color of law violate the Constitution if they are
deliberately indifferent to a prisoner's serious medical needs, serious mental health
needs, or serious dental needs. Arnett v. Webster, 658 F.3d 742, 750 (7th Cir. 2011)(citing
Estelle v. Gamble, 429 U.S. 97,104 (1976)); Rodriguez v. Plymouth Ambulance Sera., 577 F.3d
816, 828 (7th Cir. 2009)("Deliberate indifference to serious medical needs of a prisoner
constitutes the unnecessary and wanton infliction of pain forbidden by the
Constitution."). The deliberate indifference standard requires a plaintiff to clear a high
threshold in order to maintain a Constitutional claim. Dunigan ex rel. Nyman v.
Winnebago County, 165 F.3d 587, 590 (7th Cir. 1999).
"In order to prevail on a deliberate indifference claim, a plaintiff must show (1)
that his condition was 'objectively, sufficiently serious' and (2) that the . .. officials acted
with a sufficiently culpable state of mind." Lee v. Young, 533 F.3d 505, 509 (7th Cir. 2008)
(quoting Greeno v. Daley, 414 F.3d 645, 652 (7th Cir. 2005)); Duckworth v. Ahmad, 532 F.3d
675, 679 (7th Cir. 2008)(same).
8

4:17-cv-04248-CSB # Si

Page 9 of 19

"A medical condition is serious if it 'has been diagnosed by a physician as
mandating treatment or one that is so obvious that even a lay person would perceive
the need for a doctor's attention.'" Lee, 533 F.3d at 509 (quoting Greeno, 414 F.3d at 653).
"With respect to the culpable state of mind, negligence or even gross negligence is not
enough; the conduct must be reckless in the criminal sense." Id.-, Farmer v. Brennan, 511
U.S. 825, 836-37 (1994) ("We hold ... that a prison official cannot be found liable under
the Eighth Amendment for denying an inmate humane conditions of confinement
unless the official knows of and disregards an excessive risk to inmate health or safety;
the official must both be aware of facts from which the inference could be drawn that a
substantial risk of harm exists, and he must also draw the inference.").
"Deliberate indifference is not medical malpractice; the [Constitution] does not
codify common law torts. And although deliberate means more than negligent, it is
something less than purposeful. The point between these two poles lies where the
official knows of and disregards an excessive risk to inmate health or safety or where
the official is both aware of facts from which the inference could be drawn that a
substantial risk of serious harm exists, and he . . . draws the inference." Duckworth, 532
F.3d at 679 (internal quotations and citations omitted). The Seventh Circuit has
cautioned, however, that a plaintiff "need not prove that the . .. officials intended.
hoped for, or desired the harm that transpired. Nor does a [plaintiff] need to show that
he was literally ignored. That the [plaintiff] received some treatment does not foreclose
his deliberate indifference claim if the treatment received was so blatantly inappropriate

9

4:17-cv-04248-CSB. # 89

Page 10 of 19

as to evidence intentional mistreatment likely to seriously aggravate his condition."
Arnett, 658 F.3d at 751 (internal citations and quotations omitted).
In the instant case, Defendants do not deny that Hall suffered from a serious
medical condition or a serious medical need that would engender the protections of the
Eighth Amendment. As the undisputed evidence demonstrates, Defendants and other
medical specialists examined Hall and provided medical care, treatment, and surgeries
to him over a two-year period. Therefore, it is clear to the Court that Hall suffered from
a serious medical condition, and therefore, he has satisfied the first inquiry necessary
for his Eighth Amendment claim.
However, the undisputed evidence also shows that Hall has not raised a
question of fact that would preclude summary judgment with regard to the second
element of his Eighth Amendment claim. Contrary to the allegations of his Complaint,
the undisputed facts establish that none of the named Defendants acted with deliberate
indifference towards Hall's medical needs. Instead, the facts show that Hall received
medical attention each time that he sought it, and the mere fact that Hall's pain related
to his injuries was not immediately and forever resolved does not ipso facto mean that
any Defendant acted with deliberate indifference. As the Seventh Circuit has noted: "It
would be nice if after appropriate medical attention pain would immediately cease, its
purpose fulfilled; but life is not so accommodating. Those recovering from even the
best treatment can experience pain. To say the Eighth Amendment requires prison
doctors to keep an inmate pain-free in the aftermath of proper medical treatment would

10

4:17-cv-04248-GSB # Si

Page 11 of 19

be absurd." Snipes v. DeTella, 95 F.3d 586, 592 (7th Cir. 1996). Accordingly, Defendants
are entitled to summary judgment.
A.

Dr. Ritz

Hall's claim against Dr. Ritz is easily resolved. Dr. Ritz was on the utilization
management team that provided collegial discussions of and approval for Hall's
medical treatment. Dr. Ritz had no personal, direct involvement in Hall's medical care,
and Dr. Ritz had no personal interactions with Hall.
"[Individual liability under § 1983 requires 'personal involvement in the alleged
constitutional deprivation.'" Minix v. Canarecci, 597 F.3d 824, 833 (7th Cir. 2010)(quoting
Palmer v. Marion County, 327 F.3d 588, 594 (7th Cir. 2003)). The Seventh Circuit has
explained that the doctrine of respondeat superior (a doctrine whereby a supervisor may
be held liable for an employee's actions) has no application to § 1983 actions. Gay ton v.
McCoy, 593 F.3d 610, 622 (7th Cir. 2010).
Instead, in order for a supervisor to be held liable under § 1983 for the actions of
his subordinates, the supervisor must "approve^ of the conduct and the basis for it."
Chavez v. Illinois State Police, 251 F.3d 612, 651 (7th Cir. 2001); Gentry v. Duckworth, 65 F.3d
555, 561 (7th Cir. 1995)("An official satisfies the personal responsibility requirement of
section 1983 ... if the conduct causing the constitutional deprivation occurs at [his]
direction or with [his] knowledge and consent.")(internal quotation omitted).
"[Supervisors must know about the conduct and facilitate it, approve it, condone it, or
turn a blind eye for fear of what they might see. They must in other words act either
knowingly or with deliberate, reckless indifference." Backes v. Village of Peoria Heights,
11

4:17-cv-04248-CSB # m

Page 12 of 19

Illinois, 662 F.3d 866, 870 (7th Cir. 2011)(quoting Chavez, 251 F.3d at 651)). "In short, some
causal connection or affirmative link between the action complained about and the
official sued is necessary for § 1983 recovery." Gentry, 65 F.3d at 561.
The undisputed evidence demonstrates that Dr. Ritz lacked the personal
involvement necessary to be held liable to Hall under § 1983. Although Dr. Ritz was
part of the collegial review process that determined Hall's medical care, Dr. Ritz agreed
with Dr. Bautista's care plans that approved Hall for additional medical services and
testing. Accordingly, Dr. Ritz is entitled to summary judgment because he lacked the
personal involvement necessary to be held liable and, to the extent that he was
involved, Hall received the medical services that he needed at Dr. Ritz's approval.
B.

Nurse Faetanini and Nurse Young.

Similarly, Nurse Faetanini and Nurse Young are entitled to summary judgment
because they too lacked the personal involvement necessary to be held liable under §
1983. Hall testified that he sued Nurse Faetanini and Nurse Young because they
interfered with his ability to participate in physical therapy in November 2016.
However, Nurse Faetanini and Nurse Young only "interfered" with Hall's ability
to receive physical therapy to the extent that they enforced the rules and regulations
regarding physical therapy. Specifically, Nurse Faetanini and Nurse Young advised Hall
that he could not read during his physical therapy session and that he should, instead,
focus on his physical therapy session.

12

4:17-cv-04248-CSB # 8#

Page 13 of 19

When Hall entered the physical therapy room on November 9, 2016, and when
he began to read rather than engage in the prescribed physical therapy, Nurse Faetanini
and Nurse Young ended the session pursuant to the institution's rules regarding
physical therapy and reported Hall's conduct to Dr. Bautista. As such, it was not Nurse
Faetanini or Nurse Young who interfered with Hall's ability to engage in physical
therapy; it was Hall's refusal to follow the rules and to actually perform the physical
therapy that resulted in the discontinuation of his physical therapy on November 9,
2016.
Regardless, the undisputed evidence shows that neither Nurse Faetanini nor
Nurse Young possessed the authority to discontinue (permanently) Hall's physical
therapy. Rather, the undisputed evidence shows that Dr. Bautista discontinued Hall's
physical therapy after hearing of Hall's refusal to follow the rules and because Hall had
a pending orthopedic surgeon evaluation in the near future. Accordingly, Nurse
Faetanini and Nurse Young did not violate Hall's Eighth Amendment rights are entitled
to summary judgment.
C.

Nurse Parish.

Nurse Parish is also entitled to summary judgment because she did not violate
Hall's Eighth Amendment rights or act with deliberate indifference towards Hall's
serious medical needs. Instead, Nurse Parish simply informed Hall that he could no
longer use therapy putty as part of his physical therapy. Nurse Parish did not make
this decision; rather, she simply conveyed the message to him that security staff would
no longer permit it's use. Nurse Parish also simply informed Hall that Dr. Bautista
13

4:17-cv-04248-CSB it Si

Page 14 of 19

advised that he could use a balled-up sock or a piece of clothing instead. Because Nurse
Parish had no involvement in the decision regarding or the modification of his physical
therapy but was just the messenger, she cannot be held liable for violating Hall's
Constitutional rights.
Nor can Nurse Parish be held liable for failing to provide additional or adequate
pain medication for Hall post-surgery. Notably, Nurse Parish lacked the authority to
prescribe medication or to modify a doctor's prescription(s). Nurse Parish followed the
post-operative orders given by the orthopedic surgeon and Dr. Bautista regarding
Hall's pain medication. Therefore, Nurse Parish did not act with deliberate indifference
towards Hall's serious medical needs.
D.

Dr. Sood.

As for Dr. Sood, he too is entitled to summary judgment because Hall has offered
no evidence to show that Dr. Sood acted with deliberate indifference toward any of his
serious medical needs. Instead, the undisputed evidence demonstrates that Dr. Sood
provided medical care to Hall each time that Hall requested it (even for medical issues
other than the issues related to his neuropathy and tingling in his upper extremities and
arms), and there is no evidence presented that would show that Dr. Sood used anything
other than his professional judgment in providing treatment to Hall.
In general, an inmate may establish deliberate indifference one of in two ways.
First, an inmate can establish deliberate indifference by showing that medical personnel
persisted with a course of treatment that they knew to be ineffective. Goodloe v. Sood, 947
F.3d 1026,1031 (7th Cir. 2020). For example, the medical defendants in Greeno failed to
14

4:17-cv-04248-CSB #89

Page 15 of 19

conduct necessary tests, ignored specific treatment requests from the inmate, and
persisted in offering weak medication — all in the face of repeated protests that the
medication was not working. Id.; Greeno, 414 F.3d at 654-55.
Second, an inmate can show deliberate indifference by demonstrating an
"inexplicable delay" in responding to an inmate's serious medical condition. Petties v.
Carter, 836 F.3d 722, 731 (7th Cir. 2016), as amended (Aug. 25, 2016) (internal quotation
omitted). A delay claim is especially persuasive if that delay exacerbates an inmate's
medical condition or unnecessarily prolongs suffering. Williams v. Liefer, 491 F.3d 710,
715-16 (7th Cir. 2007).
Flere, Hall's complaints to Dr. Sood regarding tingling and numbness were
sporadic and occurred over a four-year period. When Hall complained directly to Dr.
Sood in October 2015, Dr. Sood prescribed medications to ease the pain, instructed Hall
to engage in stretching exercises, and prescribed vitamins to support Hall's immune
and nervous system.
Hall has offered no admissible evidence to show that this conservative approach
to treat Hall's medical needs was improper, reckless, or outside the bounds of accepted
practice, especially given Hall's sporadic complaints of pain. The Eighth Amendment
guarantees a prisoner treatment of his serious medical needs, not a doctor of his own
choosing. Estelle, 429 U.S. at 104-106 (1976); United States v. Rovetuso, 768 F.2d 809, 825
(7th Cir. 1985). It does not guarantee access to the latest technology or to a specific
medical test. Glenn v. Barua, 2007 WL 3194051, * 3 (3d Cir. 2007)(noting that "a decision
not to use an x-ray or other diagnostic technique is "a classic example of a matter for
15

4:17-cv-04248-CSB # g§

Page 16 of 19

medical judgment, and does not by itself amount to constitutionally deficient
treatment/')(internal quotation omitted).
"A prisoner has the right to medical care; however, he does not have the right to
determine the type and scope of the medical care he personally desires." Carter v.
Ameji, 2011 WL 3924159, * 8 (C.D. Ill. Sept. 7, 2011)(citing Coppinger v. Townsend, 398
F.3d 392, 394 (10th Cir. 1968)). "The Eighth Amendment does not require that prisoners
receive unqualified access to healthcare. Rather, inmates are entitled only to adequate
medical care." Leyva v. Acevedo, 2011 WL 1231349, * 10 (C.D. Ill. Mar. 28, 2011) (internal
quotations omitted).
The undisputed evidence reveals that Dr. Sood exercised his professional,
medical opinion in treating Hall's sporadic complaints of pain, numbness, and tingling.
In order to constitute deliberate indifference, "a medical professional's treatment
decision must be such a substantial departure from accepted professional judgment,
practice, or standards as to demonstrate that the person responsible did not base the
decision on such a judgment." Petties, 836 F.3d at 729 (internal quotation omitted);
Collignon v. Milwaukee County, 163 F.3d 982, 989 (7th Cir. 1998)("A plaintiff can show that
the professional disregarded the need only if the professional's subjective response was
so inadequate that it demonstrated an absence of professional judgment, that is, no
minimally competent professional would have so responded under those
circumstances."). Hall has offered no such admissible evidence. Therefore, Dr. Sood is
entitled to summary judgment.

16

4:17-cv-04248-CSB # Si

E.

Page 17 of 19

Dr. Bautista.

Hall's deliberate indifference claim against Dr. Bautista is even more tenuous.
Under Dr. Bautista's care, Hall received several surgeries to correct his medical issues at
Dr. Bautista's behest. Hall received proper medication. And, Hall received physical
therapy to assist him. There simply is no evidence that Dr. Bautista acted with
deliberate indifference towards Hall's medical needs.
Nor did Dr. Bautista delay in providing any medical treatment to Hall. In fact,
there was no unreasonable delay whatsoever. Dr. Bautista first examined Hall in
August 2016, and Hall received his first surgery at Dr. Bautista's urging in December 29,
2016, a mere three months later. The Court doubts that a three-month delay, at least
under these circumstances, constitutes deliberate indifference.
Regardless, the Seventh Circuit has held:
In cases where prison officials delayed rather than denied medical
assistance to an inmate, courts have required the plaintiff to offer
"verifying medical evidence" that the delay (rather than the inmate's
underlying condition) caused some degree of harm. That is, a plaintiff
must offer medical evidence that tends to confirm or corroborate a claim '
that the delay was detrimental.
Williams, 491 F.3d at 714-15 (internal citations omitted); Berry v. Peterman, 604 F.3d 435,
441 (7th Cir. 2010)("A significant delay in effective medical treatment also may support a
claim of deliberate indifference, especially where the result is prolonged and
unnecessary pain.").

17

4:17-cv-04248-CSB # 88

Page 18 of 19

In the instant case, there is no evidence in the record to show that the threemonth delay before undergoing surgery caused Hall to suffer any degree of harm.
Accordingly, Hall cannot rely upon any delay in receiving surgery to hold Dr. Bautista
liable for violating his Eighth Amendment rights.
F.

Wexford.

Finally, Wexford is entitled to summary judgment. Because none of its
employees can be said to have acted with deliberate indifference towards Hall, Wexford
cannot be held liable for any policy or procedure that allegedly violated his
Constitutional rights. Ray v. Wexford Health Sources, Inc., 706 F.3d 864, 866 (7th Cir. 2013).
Regardless, Hall has offered no evidence of any policy, practice, or procedure
maintained by Wexford that deprived him of his Constitutional rights as is required in
order for him to maintain his claim against Wexford. Monell v. New York City Dept, of
Soc. Servs., 436 U.S. 658, 691-92 (1978). Therefore, Wexford is also entitled to summary
judgment.
IT IS, THEREFORE, ORDERED:
1.

Plaintiff's sur-reply [73] is STRICKEN. Local Rule 7.1 does not permit

the filing of a sur-reply, and Plaintiff neither sought nor obtained leave of the Court
to file a sur-reply. Therefore, Plaintiff's pleading is stricken and was not considered
by the Court in ruling on Defendants' motion for summary judgment.

18

4:17-cv-04248-CSB # g§

2.

Page 19 of 19

Defendants' motion for summary judgment [63] is GRANTED. The

Clerk of the Court is directed to enter judgment in all Defendants' favor and against
Plaintiff. All other pending motions are denied as moot, and this case is terminated
with the Parties to bear their own costs. All deadlines and settings on the Court's
calendar are vacated.
3.

If Plaintiff wishes to appeal this judgment, he must file a notice of

appeal with this Court within thirty (30) days of the entry of judgment. Fed. R. App.
P. 4(a)(4).
4.

If Plaintiff wishes to proceed in forma pauperis on appeal, his motion

for leave to appeal in forma pauperis must identify the issues that he will present on
appeal to assist the Court in determining whether the appeal is taken in good faith.
Fed. R. App. P. 24(a)(1)(c); Celske v. Edwards, 164 F.3d 396, 398 (7th Cir. 1999)(an
appellant should be given an opportunity to submit a statement of his grounds for
appealing so that the district judge "can make a responsible assessment of the issue
of good faith."); Walker v. O'Brien, 216 F.3d 626, 632 (7th Cir. 2000)(providing that a
good faith appeal is an appeal that "a reasonable person could suppose ... has some
merit" from a legal perspective). If Plaintiff chooses to appeal, he will be liable for
the $505.00 appellate filing fee regardless of the outcome of the appeal.

ENTERED this 6th day of March, 2020
s/ Colin S. Bruce
COLIN S. BRUCE
UNITED STATES DISTRICT JUDGE

19

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
August 17, 2021

Kevin Hall
B-55872
2600 N. Brinton Avenue
Dixon, IL 61021
RE: Hall v. Sood, et al.
USAP7 No. 20-1439
Dear Mr. Hall:
The above-entitled petition for writ of certiorari was postmarked August 4, 2021 and
received August 11, 2021. The papers are returned for the following reason(s):
The appendix to the petition does not contain the following documents required by
Rule 14.1(i):
The opinion of the United States district court must be appended.
Please correct and resubmit as soon as possible. Unless the petition is submitted to
this Office in corrected form within 60 days of the date of this letter, the petition will
not be filed. Rule 14.5.
A copy of the corrected petition must be served on opposing counsel.
When making the required corrections to a petition, no change to the substance of the
petition may be made.

Sincerely,
Scott S. Harris, Clerk
By:
Clayton R. Higgins, Jr.
(202) 479-3019

Enclosures

Additional material
from this filing is
available in the
Clerk's Office.

